                    i                     NATIONAL SCIENCE FOUNDATION
                                           OFFICE OF INSPECTOR GENERAL
                                                                                                                11111
                                             OFFICE OF INVESTIGATIONS
                                                                                                                 11
                                   CLOSEOUT MEMORANDUM
                                                                                                                11
               I                                                                 I                              11
- -




TO: AIGI           File Number: 191020008                                            Date: 04 March 2002

Subject: Closeout Memo
                                                                                 I           Page 1 of 1
                                                                                                                11
      There was no closeout written at the time this case was closed. The following information was
      extracted fiom the file in conformance with standard closeout documents.

      Our office was informed that the subject' was allegedly in violation of financial conflict of interests
      regulations for federal employees. We established that the subject violated 18 USC 208 and the
      subject resigned on March 21, 1992. This case was closed after declination for prosecution by the
      Department of Justice.




                    Prepared by:                   Cleared by:
                   Agent:          Attorney:     Supervisor:      AIGI
   Name:



 Signature &
    date:
                           NATIONAL SCIENCE FOUNDATION
                                 1800 G STREET. N.W.
                                WASHINGTON. D.C. 20550




           OIG Case Number I9 1020008




    This document is loaned to you FOR OF'FICIALUSE ONLY. It remains the
    property of the Office of Inspector General. It may not be reproduced. It
    may be disclosed outside of NSF only by the Inspector General, pursuant to

e   the Freedom of Information and Privacy Acts, 5 U.S.C.$0 552, 552a.
                                                                                 L
                                       NATIONAL SCIENCE FOUNDATION
                                                1600 G STREET. N.W.
                                               WASHINGTON. D.C. 20550




                 OFFlCE OF
            INSPECTOR GENERAL




                            CONFLICT OF INTEXEST VIOLATIONS INVOLVING
                         a
                                  (hest@ion      Report-        No. I91020008) .


        Basis for Investi@im

                 The Offce of Inspector General (OIG) received an anonymous allegation that*-

             -   (the employee), the Head of the Project Management Unit (PMU), Division of
                                                                                                          -
        Administrative Services @AS), has influenced contracts in favor of
    9                              It was alleged that the employee does this because the contractor hires

        her spouse as a subcontractor. The allegations also claimed that others ir       -- were   aware of

        this arrangement and approved of it.

                 Our initid inquiry disclosed that the contractor was the primary          contractor for

        NSF from Fiscal Year (FY) 1988 through FY 1991. The employee worked as a Project

        Management Specialist from October 1987 to December 1989, when she became Head of the
        -
                 As a Project Management Specialist and as Head of the Project Management Unit, the

        employee participated personally and substantially in contracts awarded to the contractor. We

        also learned that the employee's spouse is a subcontractor for the contractor.

                 Under authority of the Inspector General'Act of 1978, as amended, we investigated


    a   possible violations of federal statutes and regulations involving conflict of interest and the


I       procurement process.
       We reviewed a majority of NSF contracts awarded for                                from

FY 1987 to the present. We reviewed documents provided by the contractor in response to our
subpoena regarding a l l documents concerning contracts, invoices, and payments to the employee ,

and her spouse. We also conducted interviews with past and present NSF employees involved

in the contracting process, with                   who have bid on NSF contracts, and with

                  who have been awarded NSF contracts. The employee was interviewed on

three different occasions. The employee's spouse declined to be interviewed.




       On June 17, 1974, the employee received a career conditional appointment as a clerk:      A




typist (GS-2) for the NSP clerical pool. According to the official personnel fde, the employee

worked at various clerical positions in the Division of Personnel Management and for the

Management Services Branch, until June 1978, when she was promoted to a Management

Analyst (GS-7) for the Management services"Branch, which eventually became DM.'             In

October 1982, the employee manied an individd who then worked at NSF as a contract

laborer. In October 1986, the employee's spouse resigned from his job as an NSF contrad
                                                                                                     I
  -
  -   he employee was promoted on July 15, 1979, to a Management Analyst (GS-9) in the
Management Services Branch, and on November 30, 1980, to a Management Analyst (GS-11).
From June 27 to October 24, 1983, the employee was detailed to the position of Head,
Reference and Records Section,     w.  On May 1, 1983, the employee was promoted to the
Head, Reference and Records Section, Support Services Supervisor (GS-12). From December
7, 1983, to April 4, 1984, she was detailed to the Ofice of the Division Director, DAS. On
March 31, 1985, she was reassigned to the Planning and Analysis Staff, D M , as a Mgrarn
Analyst. On October 11, 1987, the employee was reassigned as a Project Management
Specialist in the PMU,DM.

                                              2
laborer. On October, 14, 1986, the employee's spouse accepted an appointment as an Industrial

Equipment Mechanic with the                                         .. The employee held various
positions in DAS until October 11, 1987, when she became a Project Management Specialist

(GS-12) for the PMU.

         As a Project Management Specialist, the employee planned renovation and repair projects

and was responsible for ensuring that work was completed to the spkificationsof NSF Lntracts.

A Project Management Specialist works         the Contracting ~ f f c e r ' sTechnical Representative

(COTR)on small purchases by (a) developing work statements for contracts; @) requesting that
the Procurement Section of DAS award contracts2 to responsible contractors for renovation

projects; (c) working with contractors to ensure work is performed according to specifications

and on schedule; (d) reviewigg the work of the contractor; and (e) certifying that the work was

satisfactorily completed by the contractors. The employee and other members of the PMU were

also responsible for requesting and reviewing the work of contractors who performed work for

NSF under a Blanket, Purchase Agreement @PA),'           On December 17, 1989, the- .employee

became Acting Head (GM-13) of the PMU and in June 1991 she was promoted to the Head of



    ?The Procurement Section of DAS has authority to award small purchase contracts. A small
purchase means an acquisition of supplies, nonpersonal services, and construction in the amount
of $25,000 or less. Federal Acquisition Regulations, Title 48 of the Code of Federal
Regulations (FAR), subpart 13.1. Only the Division of Grants and Contracts has authority to
iss6e contracts for more than $25,000.

    3~  BPA is a simplified method of filling anticipated repetitive needs for supplies or services
by establishing charge accounts with qualified sources. FAR 5 13.201(a). A BPA is used to
secure supplies or services on a per call basis that do not exceed $2,500, 10% of the small
purchase limitation of $25,000. FAR 58 13.101, 13.106. For small pu~chasesthat exceed
$2,500, the Contracting Officer (CO) must solicit quotations from generally three sources so that
an individual contract can be awarded based on adequate competition. FAR 5 13.106. A BPA
shall not exceed $25,000, the dollar limitation for small purchases. PAR 8 13.204@).
the PMU. As Head of the PMU, the employee was responsible for all projects and has

administrative approval over a l l PMU requests for contracts.
                                                                            I




       The contractor first became an NSF contractor in September, 1986, when the contractor

was awarded a BPA in the amount of $              for                               during PY 1987.

The contractor has been the primary                           for NSF since FY 1988. From FY 1988

through FY 1991, the contractor received over $253,555 in contracts from NSF?

       The employee first worked on an NSF contract with the contractor for                in March

1988. The employee's spouse has worked as a subcontractor for the contractor since June 1988.

In response to our subpoena, the contractor provided copies of 30 subcontracting invoices for

the employee's spouse and copies of cancelled checks showing that he received $27,377 from

contractor while working as a subcontractor. Between June 1988 and October 1991, the

employee's spouse w o r w as a subcontractor for the contractor on 18 NSF contract actions and

was paid at least $13,703.40 for      that work.        During this same time period, the contractor

received $         1 from 19 contracts from NSF in which the employee participated personally

and substantially; her spouse received at least $6,739.65 from these contracts.


18 U.S.C. 6 208 and 8 216         .

       Section 208 of title 18 of the uniteh States code, entitled "Acts affecting r personal          '




financial interest," states in pertinent part,



   m e contract,             was amended twice to a total of                     The contractor was
awarded two other contracts during FY 1987 for        and
    'I'he contractor received over               from contracts during FY 1988 and over           3
during FY 1989.
                                                          -
                                                   4
       "(a) Except as permitted by subsection @) hereof, whoever, being an officer or
       employee of the executive branch of the United States Government, or any
                                                                   . .
       independent agency of the United States, .' participates personally and
       substantially as a Government officer or employee, through decision, approval,
       disapproval, recommendation, the rendering of advice, investigation or otherwise,
             . .
       in a . contract, claim,                 ...
                                        or other particular matter in which, to his
       knowledge, he, or his spouse,            ..
                                         ;has a financial interest-

       Shall be subject to the penalties set forth section 216 of this title."

Section 216 of title 18, 'entitled "Penalties and injunctions," states,

       "(a) The punishment for an offense under [section 2081 of this title is the
       following:
                                                       4                2




       (1) Whoever engages in the conduct constituting the offense shall be imprisoned
       for not more than one year or fined in the amount set forth in this title or both.

       (2) Whoever willfully engages in the conduct constituting the offense shall be
       imprisoned for not more than five years or frned in the amount set forth in this
       title, or both.

       (b) The Attorney General may bring a civil action in the appropriate United States           -
       district court against any person who engages in conduct constituting an offense
       under [section 2081 of this title and, upon proof of such conduct by a
       preponderance of the evidence, such person shall be subject to a civil penalty of
       not more than $50,000 for each violation or the amount of compensation which
       the person received or offered for the prohibited conduct, whichever amount is
       greater. "

An individual does not have to have a direct or certain financial interest to violate these statutes.

The Supreme Court has explicitly held that an individual will violate the law if he or she

participates personally and substantially in a contract when there is "a substantial probability"

th2 the individual (or the individual's spouse) will receive a subcontractct6

       Evidence generated by this investigation indicates that the employee personally and

substantially participated in at least 19 NSF contracts for                    1 that have been awarded to

                                -




    "United States ;.   ..-.-----   ,=-   ,   -.   -           -    ,   364 U.S. 520,555 (1961).
                                                           5
e   the contractor while knowing that there was a substantial probability. that her spouse, as a       ,a




    subcontractor for the contractor, would benefit from these contracts.          The employee also

                                      . ,
    personally and substantially participated in eight of those contract actions as a Project Manager

    or as Head of the PMU,for which her spouse received at least $6,739.65 as a subcontractor for

    the contractor. The employee could be liable for criminal and civil penalties under 18 U.S.C.
                                                                                                  !
                                                                                                         -
    5 208 and 5 216 for her participation in these contracts. NSF could also impose administrative
    sanctions, including termination, against the employee.


    Evidence of personal and subhtial participation by the employee in eight contracts in which

    her spouse, who had a financial interest, was paid at least $6,739.65

           1. In ~ u i e 1988,
                         ,     the employee, as the Project Manager for a project on the .

                             .   personally called the contractor to authorize the contractor to install

              for this project under NSF Contract               - -,   a BPA during FY 1988. The tdtal

    cost for the carpet installation was            '   The employee authorized this without seeking

    the advice or approval of the DAS Contracting Officer (CO). The employee's spouse worked

    for the contractor on this project as part of a five man moving crew which included two of the

    employee's brothers.' On June 27, 1988, the contractor paid the employee's brother $738 for




         'The cost of this project exceeded the $2,500 small purchase limit for a BPA. We believe
    that the employee should have notifled the CO of the total cost of this project so the CO could
    have solicited quotations from three sources and awarded the contract based on the competitive
    procurement process.

         ?'he involvement of the employee's brothers in this contract action is not a violation of
    Federal Statutes but NSF Manual 15, 5 621.2 1, required the employee to bring the matter to the
    attention of a conflicts official.
work on the contncmr's proje&                   The contractor submitted to NSF four invoices,

                                                                           The four invoices were

dated July 21, 1988 and totaled                 On August 3, 1988, the employee signed invoices

                                  , which approved payment to the contractor.    On September 6,

1988, she signed invoice '   "                which approved payment to the contractor.

       2. In August, 1988, the employee, as the Project Manager for the 6th Floor project,

personally called the contractor to authorize the contractor to install             for this project

under NSF Contract I+                    The total cost for the carpet installation was          1°

The employee authorized this without seeking the advice or approval of the CO. On August 23,
                                                                                          *

1988, the employee signed a memorandum requesting after hours building access for the

contractor to install carpet during August 26-28, 1988. The employee's spouse moved furniture

on this project for the contractor and was paid $405. The contractor submitted to NSF four
                - - - --     .-
                                                                                               The
invoice;

four invoices, which totaled $             were all dated August    ,1988. On September6,1988,

the employee signed the invoices, which approved the payment of the contractor's invoices.        .

       3. On July 21, 1989, the employee's spouse was paid $445 for mov4g furniture for the




    9The $738 is not added into the total amounts paid to the employee's spouse by the
contractor .because the contractor piid her brother for this project and we are unable to
determine the spouse's portion of this payment.
    '%e cost of the carpet installation exceeded the $2,500 small.purchase limit for a BPA.
We believe that the employee should have notified the CO of the total cost so an individual
contract could have been awarded through the competitive process based on quotations
                                                                                  + .-solicited
from three sources.
contractor's proje         - Phase III of the NSF 1lth Floor project." The 1lth Floor project
was completed in four phases and the employee's spouse worked on all four phases. In July,

the employee became the Project Manager for the 1lth floor project because the original Project
                                                                                                         - .
Manager went on maternity leave. On July 21, she signed the contractor's. invoice,

which approved payment of $              to the contractor under NSF Contract No.               - .
                                                                                              -. .


       4. On Friday July 21, 1989, the employee sent an electronic mail message that stated

that at 7:00 p.m.; the contractor would remove all conventional fumiture for the last phase of

the 11th Floor project and that, after                     on Saturday and Sunday, the furniture

would be returned. The employee also signed a memorandum requesting after-hours building

access for the contractor from July 21 through July 23, 1989. The employee's spouse was paid

$685 for moving furniture on the contractor's projec?           .   NSF                11th Floor. On
                                                                          --
August 10,1989, the employee signed the contractor invoice                     which approved payment

of $          to the contractor under NSF Contract No.

       5. On August 22, 1989, the employee, the Project Manager for                             signed

a Request for Services for a       t contract. On September 5, 1989, the CO for DAS awarded

NSF Contract - -               ! to the contractor for $                       The contractor paid the

employee's spouse $2,791.25 for moving fumiture on the.         - ymject.

  -
    "DAS awarded nine small purchase contracts to the contractor totaling $       for the 1lth
floor project. The small purchase limit is $25,000, and a purchase cannot be broken down into
several purchases that are less than the limit merely to permit the use of small purchase
pmedum. FAR $ 13.103(b). We believe DAS improperly awarded these contracts to
contractor as small purchases.

    '%e contractor also submitted an invoicl          lnder NSF Contract Nc         - - for
$        to the attention of the employee. There is no signature approving payment for this
invoice.
       6. On August 22, 1989, the employee, the Project Manager for the                 signed

a Itekest for S e ~ c e for
                        s a          contract. On September 5, 1989, the CO awarded NSF

Contract No,          4 to the contractor for              The contractor paid the employee's

spouse $1,485 for work on the        -   -      On October 17, 1989, the employee signed the

contractor's invoice for             which approved payment for the contractor under NSF

Contract No:'

       7. On August 24, 1990, the employee, Head of the PMU, signed the Request for

Services for tile work on a project in Room 233. On September 24,1990, the CO awarded NSF

Contract P             to the contractor for          The contractor paid the employee's spouse

$500 for moving fwnituxe on the Room 233 project.

       8.. On October 23, the employee, as Head of the PMU, signed a Request for Services

for                 1in Room 339. 00October 31, 1991, the CO awarded NSF conmct No.

          o the conttactor for $             The contractor paid the employee's spouse $428.40

for moving furniture on the Room 339 project.


       We also identified ten NSF contract actions that the employee's spouse was a

subcontractor for the contractor in which we found no evidence that she took official action.

From September, 1988 to September 1989, her spouse was paid $6,963.75 from the contractor

for-moving furniture on these ten NSF contrac? actions.


The employee's knowledge of.her spouse's financialinterest in NSF contmds

       CIearly, a conflict of interest existed involving the employee, an NSF emplojee who has

been personally and substantially involved with NSF contracts, and the contractor, an NSF
'?

         contractor that regularly hires the employee's spouse as a subcontractor.           Under federal

         statutes" and NSF regulations14, the employee was obligated to disclose the conflict to her

         supervisors and to an agency ethics official. In a sworn statement to OIG on November 1, 1991,

         the employee stated that she did not realize that there was a conflict of interest and did not think

         to seek conflicts advice. We believe that she should have identifed the conflict in 1988 and

         should have sought conflicts advice at that time.

                  The employee originally told us that she did not know how her spouse became a

         subcontractor for the contractor.     During our investigation, we discovered that she was

         responsible for her husband becoming a subcontractor for the contractor. The Vice President

         for the contra~tor'~
                           told us about an NSF project with which he was involved during June 1988.

         According to the Vice President for the contractor, the project was to be completed over a

     .   weekend but after starting the project on Friday night, it became apparent that the contractor's

                          were not prepared to move the furniture needed to complete the project. The

         Vice President for the contractor attempted to obtain professional movers but failed to get any

         assistance from moving companies over the+weekend.
                                  i



                  The Vice President for the contractor told us that he notified the employee, the NSF

         Project Manager, about his problems with the furniture and his inability to obtain professional

         movers over the weekend. According to the Vice President for the contractor, the employee told

         & that her spouse worked with a moving crew and gave him a telephone number and a name

             1318U.S.C.    5 208(b).


              he Vice President for the contractor negotiated the first contract with NSF in September
         '1986.
    to contact for the moving crew. During the December 18, 1991 intemiew, the employee

    admitted to us that the phone number was to her mother's house and the name was her brother.

    The moving crew, which included her spouse and two of her brothers, worked for the contractor

    over that weekend and helped the contractor complete the NSF project on schedule. Upon

    completion of the work, the contractor paid the employee's brother as the subcontractor for this
                                                         .   *.
    project; however, it was decided that her spouse would be the contact person between the

    contractor and the moving crew for all future projects.

              The contractor's documents show that the employee's spouse was first directly paid by

    the contractor as a subcontractor on July 8, 1988. A invoice from the contractor dated ~ u n30,
                                                                                                e

    1988, shows that he worked for the contractor on a project at the
                                                                      -                            .   -
                                                                                                           .
                                                                                                           I



                                                                                                           I




         -                                -                  he Vice President for the contractor told

    us that he contacted the employee's spouse to work on thc     '      - roject and that the contract

                                     assisted the Vice President with the
    representative for the contra~tor'~                                        .       - roject.       Both

    the Vice President and the contract representative for the contractor told us that the employee

    accompanied her spouse to the     -       ,ob site. For this subcontract, the employee's spouse

    received a check from the contractor for $261.00. Both the employee and'her spouse endorsed

    this check and she deposited the contractor's check in her NSF Federal Credit Union account

    on July 12, 1988." When the employee endorsed the check from contractor, she had been a

    G j e c t Management Specialist for 9 months and had participated in several NSF contract actions



        '%e contract representative for the contractor has been the contractor's contract
    representative for NSF since 1987.


m
        ''All other checks from the contractor to the employee's spouse have been cashed by her
    spouse.
    with the contractor. It is beyond refute that the employee had actual knowledge of the fact that

    her spouse served as a subcontractor for the contractor on NSF contracts.
    ..

    The employee's involvement in her spouse's business dealings with the co~ltractor.

           We find that the employee's actions indicate that she did not adequately remain separate

    from her spouse's business dealings with the contractor. Documents and witness statements

    indicate that she was actively involved in her spouse's business dealings with the contractor.

           As described above, in June 1988, the employee accompanied her spouse to the

    contractor's job site at the
                               I
                                   -                   -.    - - -.-.   The contract representative for the

    contractor told us that the employee was at the         I job   site marking furniture that her spouse

    and crew were to move as part of the contractor's subcontract.


a          The employee's name appeared on six internal work invoices from the contractor that

    were used to pay her spouse as a subcontractor.''        Four of the six work invoices from the

    contractor were prepared by the contract representative,.for work performed by the employee's

    spouse and his crew on NSF projects during 1989. A contractor's work invoice for the NSF-

          -3roject' dated February 4, 1989, stated, ."Furn. Moving Co. [the employee's spouse and

    the empl&&], Moving Furniture, They to be paid $540."

           The next three work invoices from the contractor in which the employee's name appeared

    allplated to the 11th floor project in May and June, 1989. An invoice dated May 27, 1989,

    stated, "N.S.F. 11th Floor phase I, Movers: [the employee], already set up and scheduled by
                                                  '




    [the contract representative], Furn. Move $789. " An invoice dated June 10, 1989, stated, "NSP


                                                                                      .   -

a            .-
        18AU checks from the contractor were issued to the employee's spouse.
                                                      12
partial phase 11& ID, 1lth Floor, Furn Movers [the employee], already set up & scheduled by

[the contract representative], Fum ~ 0 v i . n$1,284.
                                               ~      ' A third invoice, dated June 17; 1989,

stated, "NSFllth Floor Phase 4 Partial, Movers [the employee], Already set up & scheduled

by [the contract repxcsentative]. "I9 During May and June, 1989, the 1lth Floor project was

handled by another Project Manager. The employee completed the llth Floor project in July

and August, 1989, when the original Project Manager took maternity leave.

       The contract representative for the contractor provided a sworn statement to us and said

that he could not recall the reasons that he wrote the employee's name on the four invoices for

her spouse. The contractor's contract representative added that he had much more contact with

the employee than he had with her spouse and assumed that when thinking of the employee's

spouse, he also thought of her because he knew they were married. .The contract representative

told us that he had telephoned the employee at NSF to ask her to locate her spouse about

prospective jobs and that he had talked to her about her spouse's work on NSF projects.

       The employee's name also appeared on two work invoices from the contractor for

subcontracting for a project with the           -                     .   during June 1990. One

invoice dated June 16, 1990, stated, "Part Pay [the employee], Move Furniture $2459.67. " The

other invoice, dated June 23, 1990, stated, "Part Pay [the employee], Move Furniture

$1790.33." The-employee's'spouse was paid a total of $4,250 from the contractor for this

sukontract. A f m e r employee for the contractor who worked on the,NIC project, told us that

the employee accompanied her spouse when her spouse met with the contractor's representatives



    '?'he employee took over the 1lth Floor project in July 1989, and may have provided advice
on the project prior to July 1989. Advice is considered participation under 18 U.S.C. 5 208.
at the     .   building to review the job site and submit a proposal. The contract representative

for the contractor who handled NSF contracts was one of the contractor's representatives that

met with the employee and her spouse at thr            job site. Both the contract representative and

the former employee of the contractor told us that the employee assisted and advised her spouse

during the job site review.
                      d
                      .   1




         When questioned about these actions, the employee responded that she saw nothing

improper about these actions at that time. We find it inconceivable that the employee, as a GM-

13 government official who is actively involved in contract actions with a contractor, would see

nothing improper about meeting with that contractor concerning subcontracting for her spouse.


The employee's failure to comply with the Federal Acquisition Regulations regarding NSF

contracts awarded to the conhactor.

         On July 11, 1988,20while acting as an NSF Project Manager, the employee requested

that the Procurement Section of DAS issue two contracts to the contractor for                     the

Ofice of the Director (OD). These two contracts, NSF Contract No,              '   -      -   I




which totalled $              , were not corhpeted and the contract-fdes do not contain a sole source

justification. The only proposal in the two contract files is a proposal from the contractor dated

May 0, 1988. The proposal was'signed by the contract representative for the conthctor and

sub-mitted to the employee. The Contracting Oficer for DAS in July 1988, told us that he was

f d notified of t h e . 0 project
                          ~       when he received the requests for services from the employee

dated July 11, 1988. According to the Contracting Oficer, the contracts were awarded to the



    200nJuly 12, 1988, the fvst check from the contractor to the employee's spouse, which was
endorsed by her, was deposited into the NSF Credit Union.
                                                  14
contractor because he was told by the employee that the work had been scheduled and the OD

had been notified of the schedule. When questioned about these contracts, the employee told
                                                                                    .   +

us that at that time she did not see anything improper about these actions.
             *
       Between h h y and September, 1988, the employee was the Project Manager on six

different             projects which exceeded $2,500 that were completed by contractor under the

BPA contract no                   The contractor received $            for these six projects that

were completed without review or approval by the Contracting Officer for DAS. The employee

was the project manager on the fmt NSF project that her spouse worked for the contractor
during June, 1988, and the first NSF project that her spouse was directly paid as a subcontractor

for the contractor duling August, 1988. These two projects were completed under NSF Contract

            --   - a d exceeded the $2,500 limit for purchases under the BPA.
       Several of these projects we= broken down into different purchase calls to secure

supplies and services from,the contractor under the BPA so the cost per purchase call was less

than the limit of $2,500. When these related.purchase calls were added together, the+ total cost

exceeded $2,500. The employee told us that this was acceptable to DAS because the projects

were "phased projects" that needed to be completed in phases to avoid displacement of NSF

personnel during the     renovation^.^ A review of the contractor's invoices for the six projects
showed that contractor submitted one invoice to NSF for the related purchase calls or submitted
  -
several invoices on.the same date for the related calls. We believe that the employee should



   2 ' ~ h employee
           e        has been an authorized caller on all BPAs awarded to the contractor since
FY 1988.
                                                                                   C


    2 w efound examples of phased projects being completed under BPAs only during FY 1988
and FY 1989. The current Contracting Officer for DAS stopped this practice in FY 1990.
1




    have notifed the CO of the total cost of each project so that the CO could have solicited

    quotations from three sources and awarded individual contracts for these projects based on the

    competitive procurement process.

         I   In addition, we believe with the practice of "splitting" purchase calls under a BPA is

    improper because the FAR states that a purchase cannot be broken down into several purchases

    that are less than the limit merely to permit the use of small purchase pr~cedures.~
                                                                                       Splitting

    purchase calls for phased projects is a recognized subversion of the small purchase procedures.
                                                                              4


    If projects must be completed in phases, the Contracting Officer should specify in the contracts

    that the contractor must complete the work in phases over a period of time.

             The employee also signed three requests to increase the funds for the BPA with the

    contractor for FY 1988, contract numbeq               3n July      1988, she signed a request that

a   the Procurement Section increase om -- -          le amount of $          At this time, DAS had

    already allocated and used $22,000 on     -           ?ne ~ u l 22
                                                                    i request caused                 I


    exceed the $25,000 small purchase limit?4 by $17,000. On September 9, 1988, she signed a
                                                      -
    request that the Procurement Section increase '          n the amount of $         On September

    13, 1988, she signkd a request that the Procurement Section &crease                in the amount

    of          to a total of $53,534. The total amount for this BPA exceeded the small purchase

    limit by $28,534. When questioned about these amendments, the CO stated that he amended

    ~ ~ ; B P Abecause he was understaffed and he knew that renovation and repair projects were high

    priority projects in DM.
    !
                    During September 1988, the employee participated in meetings about the DAS and the

                                                                                    renovation projects. The DAS

    I       and -      >rejects involved the installation of                                            . The result
    I
    I
            of these meetings was that the                          costing $8,026 for the DAS project and $4,185
                            -
            for the,               project, would be completed by the contractor under the
                       .
                                                                                                        contract no.

                           ..,   The employee was the Project Manager on thf       project and she was substantially

            involved in the decision to use the contractor for thc             -      3.    Both the        .and DAS
            projects exceeded &e small purchase                 of $2,500 for purchases under    2 %-        The CO

            should have solicited quotations from h legst three'sources and'awarded individual contracts for
I
            each project based on the competitive'procurementprocess.


            Inconsistent sbkments by the employee.
        8           We first interviewed the employee in the early stages of the investigation on November

            1, 1991. She provided a sworn statement at that interview. As the investigation continued, we
                                                                                        J




            found that the employee's sworn statement was inconsistent with other information that we

            developed. We again interviewed her on December 4 and December 18, 1991, and she refused

            to provide sworn statements at these two interviews. In addition, the employee has refused to

            provide us with substantive c o ~ t i o n and
                                                      s changes to our typed notes of the December 4 and



                    As previously stated, the employee told us that she did not know how her spouse started

            working for contractor. In the sworn statement, she said, "I don't know how long [my spouse]
                                                                                                        -
            has worked for [the contractor], but he has been subcontracting for [the contractor] for as long

            as I can remember. " During the December 18 interview, we explained to the employee that we
.*
     had learned that in 1988, while working as a Project Manager, she had given the Vice President

     for the contmc,tor a name and phone number to reach a moving crew and that she told the Vice

     President for the contractor that her spouse was part of that crew. She responded that the
     I



     telephone number that she gave was to the NSF contract labor force. We then read the name

     and telephone number that she provided to the contractor and asked her to identify the name and

     telephone number. She stated that the        hone number was to her mother's house and the name
                                                                                                 -
     was her brother's name.

             In the sworn statement, the employee said, "I tried to distance myself from [her spousel's

     working relationship with [the contractor] and all other contractors that [my spouse] worked for.

     I assume that he did do some subcontracting through [the contractor] on NSF contracts because

     of his long tern relationship with [the contractor]." During the December 4 interview, we

     showed the employee all the NSF contracts that she was involved with and the copies of

     documents showing that her spouse worked as a subcontractor for the contractor on those same

     contracts. We asked the employee if she knew that her spouse worked on those NSF projects

     and she replied that she did not know that her spouse worked on those projects. In a sworn

     statement, the contract representative for the contractor said, "I knew that [the employee] was

     aware that I was using p e r spouse] to move furniture on NSF projects, including projects that
                                          .   .
     [she] was .the. NSF contract person, because I would mention to per] that I was using per
         -
     sp6usel on the projects. "

             During our interviews, the employee made several statements about her spouse's work
                                                          I
                                                                       .   .
     history and business as a mover. In the November 1 sworn statement, she stated, "Around
                                                                               r
                i

     October 1987, [my spouse] quit [the NSF contract labor force] to establish working for himself
                                                     7   3



as a mover. me] also took a job with the D.C. Government as [an] industrial mechanic. me]

still works during the day for the D.C. Government &d moonlights as a mover at night." We

learned that the employee's spouse resigned from the NSF contract labor force in October 1986,

not October 1987, to accept a position with the D.C. Govemment. Without interviewing the

employee's spouse, we cannot confirm that the he resigned from the NSF contact labor force

to establish himself as a mover. However, we have learned that on at least five occasions (over

weekends) in 1989 and 1990, the employee borrowed a moving dolly for private use from the

NSF equipment supply. If her spouse was in the moving business as she has claimed, we do

not understand why she would need to borrow a lddving dolly over the weekend when her

spouse, a professional mover, would have such equipment.

       We have questions about other statements that the employee has made about her spouse's

business activities as a mover but we have found no independent way to comborate thcse

statements. We also have no way to determine the extent of the spouse's business dealings with

NSF kntractors without talki.ngto him. On two occasions we asked the employee if she would

ask her spouse if he would agree to be interviewed for this investigation. On December 4 and

December 18, 1991, she told us that she had talked to her spouse about being interviewed for

this investigation and that he refused to be intervieied. When we contacted the employee's
spouse directly, he told us that she had not previously'toldhim that we wanted to intemiew him.

6employee's spouse agreed to be interviewed on January 13, 1992, at 9:30 a.m.         He did not

appear for the interview and later stated that he wanted to seek legal advice before he talked to

us. On January 15, 1992, he telephoned us and declined to be interviewed for this investigation.

       In her sworn statement, the employee stated, "I did not realize that there was a conflict
"I
     of interest and did not think to seek conflicts advice. No one in DAS or in NSF suggested to
          4   .
                                                          *.
                                                           \




     me to seek, conflicts of interest advice when I got married or as I gained more responsibility

     through promotions." We cannot accept this explanation because it was her responsibility to

     identifv the conflict and to seek advice. She did not notify her supervisors or a conflicts official

     that her spouse was        a subcontra*        for an NSF contractor. In addition,+inApril. 1990, the

     employee was identified by the DAS conflicts officer as an individual who should attend the NSF

     Conflict of Interest (COI) briefing. The employee was one of 15 DAS employees who was sent

     notice of the COI briefing by electronic mail. According to the employee, she did not attend

     that briefing.                         .   ,



                  We find it diff~cultto believe that the employee did not identify the conflict of intextst

     in 1988. By June 1988, she had held various administrative positions in D M for 10 years,

     including a position as the Special Assistant to the Director of DM. We think that during that
                                I
                                                                   r       (



     time the employee would have been exposed to COI issues. Even if we accept that she did not

     identify the conflict immediately, we find that her inability to identifv the conflict over a four
                                                               ,       ,


     year period to be unacceptable. We find this position even more unacceptable when considering

     that since December, 1989, the employee has been acting as a supervisor and Head of the PMU.

     As the Head of PMU,she receives copies of a l l distributed COI notices.


     Fibdings concerning the allegations that others in DAS wem awaxe that the employee's spouse

     worked as a subcontractor for the contractor and appmved of this anangement

                  In addition to the employee, we interviewed 12 past and present employees of DAS who

     were involved with the contract actions and renovation projects.                Two former h j e c t

     Management Specialists stated that they heard from a former employee of contractor that the

                                                           20
    I)   employee's spouse worked for the eontractor as i subcontractor, but stated thaf key had never

    I    seen him work on an NSF                        and had no direct knowledge that he actually' wai a

    I
                                                                 C


                                                                                    s that by
         subcontractor for the contractor. Both of these former Project ~ a & ~ e rsaid      did not

         notify DAS or NSF management that they heard the employee's spouse worked for an NSF

    1.   contractor. We intemieked the employee's immediate supervisor. The supervisor was the Head
                                            -   ,        %



         of the PMU when the employee was a Project Management Specialist and is currently Head of

    I
                                                         a   .
                                                                     -   9


         the Facilities ~ a n a ~ e m eSection.
                                       nt       He told us that he was a$=             that the employee's spouse

         w& in the haulinglmoving business but he did not know that the employee's spook worked fot

         the contractor or any other NSP contractor. The supervisor said that he had not witnessed the
                                                    5



         employee show any favoritism toward ihe contractor or any other contractor.

I               We failed to identify any NSF employee who was involved in these contracts and

         renovation projects and who had dire& knowledge that the employee's &use worked as a

         subcontractor on NSF contracts. Therefore, we have found no information to support the
                                                                             *'   (I



         allegation that others in D M had knowledge of this and supported it.

                Moreover, the employee told us that she did not advise her supemisor or anyone else in

         DAS about her spouse's business dealings with the contractor. We believe that the employee's

         failure to inform her supervisor, or allok anyone else in DAS to even discover this essential

         fact, explains how her spouse had been able to work on 18 different NSF projects for the

         cokractor between 1988 and 1991 without any NSF employee knowing about it.




               Based on our investigation, we concluded that the emplo;ee engaged in conduct that
I                                       -
         constituted violation of 18 U.S;C. 8 208. While Bcting in an official capacity as a Project
    8
Management Specialist for the PMU, the employ& was responsible for her spouse becoming a

subcontractor for a contractor who was regularly awarded contracts from NSF. She knew that

her spouse was a subcontractor for the contractor since June 1988. While knowing that her

spouse was a subcontractor for the contractor, she intended to participate and did participate

personally and substantially in at least 19 contracts with the contractor in which there was

substantial probability that her spouse would benefit financially. The employee failed in her

obligation to identify the conflict of interest and seek appropriate conflicts advice.

       On February 13, 1992, we referred our draft investigation report regarding this matter

to the U.S.Attorney's Office. While this matter was under evaluation by the U. S. Attorney's

Office, the employee resigned, effective March, 21, 1992. On March 23, 1992, the U.S.

Attorney's Office declined criminal prosecution "due to mitigating circumstances, most

importantly limited prosecutorial resources.'   On March 30, 1992, the U.S.Attorney's Office

declined civil prosecution. This matter is hereby closed.



Date: March 31, 1992
